August 6, 2009

ELLIS A. BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Rio Grande District – Vending Operations Risk
         (Report Number FF-AR-09-205)

This report presents the results of our audit of the vending operations risk in the Rio
Grande District (Project Number 09BD013FF000). We conducted this audit at 10 post
offices, stations, and branches (units). This audit was self-initiated and addresses
vending operation risk based on factors evaluated by a U.S. Postal Service Office of
Inspector General (OIG) vending risk model. See Appendix A for additional information
about this audit.

Conclusion

Based on items we reviewed, internal controls over vending were not in place and
effective at six of the 10 units audited. These conditions are attributable primarily to
insufficient managerial oversight of vending operations at the units. As a result, the
U.S. Postal Service is at an increased risk of losing cash and accountable items without
detection, and financial records could be misstated.

Vending Controls Were Not Followed

Management at six units did not conduct a final credit examination and close vending
credits totaling $185,244. Also, five units did not return vending stamp stock to the
Stamp Distribution Office (SDO) for destruction. In addition, five units did not make final
deposits of vending cash totaling $9,241. Further, we noted other internal control and
compliance issues. See Appendix B for our detailed analysis of the findings,
Appendix C for the results of our accountability examinations, and Appendix D for the
internal control deficiencies for each unit.

We believe these conditions are attributable primarily to insufficient managerial
oversight of vending operations. For example, the supervisors at three stations stated
that they had other duties that were higher priority than vending operations. A
supervisor at another station stated it was an oversight that the vending credit was not
closed, and another supervisor stated he was unaware the vending credit was still open.
In addition, the District Finance Manager agreed there was insufficient District oversight
over vending operations. During our audit, the District Finance Manager stated the
Rio Grande District –                                                                                 FF-AR-09-205
 Vending Operations Risk


District would accelerate the removal of vending machines and the destruction of
vending stamp stock.

We judgmentally selected the 10 units based on the OIG vending model1 and, as such,
we did not determine whether controls over vending operations at other units in the Rio
Grande District are in place and effective. However, we are concerned that the issues
identified could be indicative of similar issues at other units within the District. For
example, in addition to the 10 units we audited, the vending model shows as of
March 27, 2009, there were vending stamp stock balances totaling $100,043 at 19
additional units in the Rio Grande District that had no sales activity. In addition,
separate from this audit, we performed randomly selected audits of four post offices in
the Rio Grande District over the last 3 years in which we reported vending accountability
issues in two of the audits.

Unless unit management adheres to vending accountability and vending closing
procedures, the Postal Service is at an increased risk of losing cash and accountable
items without detection, and financial records could be misstated. Appendix E shows
our $6,128 monetary impact for unrecoverable unsupported questioned costs2 and
$9,2413 in recoverable revenue loss. Appendix F shows our $185,2444 non-monetary
impact for accountable items at risk. We will report the monetary and non-monetary
impacts in our Semiannual Report to Congress.

We recommend the Vice President, Southwest Area, direct Rio Grande District
Management to:

1. Develop and implement an action plan with milestones, to address the vending
   accountability issues at each of the units identified in this report, as well as for all
   units within the District.

Management’s Comments

Management agreed with the findings, recommendation, and the monetary impact.
Management disagreed, however, with the non-monetary impact for accountable items
at risk. Management stated all vending stock was secured and awaiting a call from the
Stamp Destruction Committee. Management provided an action plan with milestones to
address the issues identified in the report. They plan to implement corrective actions by
August 15, 2009. See Appendix G for management’s comments in their entirely.




1
  For additional information on the vending model, see Appendix A.
2
  Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation. These costs
are also not supported by adequate documentation.
3
  Revenue that can be collected for goods delivered or services rendered.
4
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.




                                                         2
Rio Grande District –                                                        FF-AR-09-205
 Vending Operations Risk


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report. However, the OIG
disagrees with management’s assertion that all stock was secure. Six units did not
complete a credit examination of the servicing employees and close the accountabilities
when vending operations ceased. As a result, there is no assurance that the amount of
stock secured in the safes at that time was the same amount that we counted during our
audit.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, Director,
Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
  for Financial Accountability

Attachments




                                           3
Rio Grande District –                                                                               FF-AR-09-205
 Vending Operations Risk


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Stamp vending machines were a quick, easy, convenient alternative for stamp
purchases when the vending program began. However, aging equipment, inadequate
supply of repair parts, and the high cost of specialized vending stock, along with
customer dissatisfaction with dollar coins in change, machine malfunctions, and failure
to accept credit and debit cards, have made the machines obsolete.5 Therefore, the
Postal Service implemented a program in October 2006 to phase out approximately
5,900 stamp vending machines each year from post offices and retail locations across
the country until the nearly 23,000 machines that were in service are removed by 2010.
In fiscal year (FY) 2007, vending generated $393 million in revenue, while FY 2008
revenue was $227 million. As of October 1, 2008, 61 districts have approximately 4,600
vending machines. The Rio Grande District had 187 machines.

The OIG performs periodic financial risk assessments. Based on financial data in the
Enterprise Data Warehouse, the OIG developed a vending model that ranked the Postal
Service’s 80 districts with respect to financial risks associated with vending operations.
We selected the Rio Grande District because the model, as of the end of March 2009,
ranked the District fourth in financial risk compared with others around the country. As
of the end of May 2009, the District’s ranking had improved to 11th.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether internal controls over vending
operations in the Rio Grande District are in place and effective.

To accomplish our objective, we conducted limited scope financial audits of vending
operations at 10 judgmentally selected Rio Grande District units. We selected the
following units for audit based on the dollar value of stamp stock at units with no sales
and stock activity. The 10 units reported approximately $15.6 million of revenue in FY
2008. The units included:

    •   xxxxxxxxxxxxxxxx, Austin, TX
    •   xxxxxxxxxxxxxxxxx, Austin, TX
    •   xxxxxxxxxxxxxxxxxxxxxx, Cedar Park, TX
    •   xxxxxxxxxxxxxxxxxxxxx, Austin, TX
    •   xxxxxxxxxxxxxxxx, Round Rock, TX6

5
  In addition to the vending program, the Postal Service implemented an automated postal center (APC) program in
April 2004 to give customers convenient access to Postal Service products and services. APC units are kiosks where
customers can ship packages, buy stamps, and verify ZIP Codes.
6
  Although the model indicated the sale of two books of Forever Stamps, we included this site in our sample because
there were no vending equipment postage sales, and a March 2009 Web Vending Activity Reporting System report
listed the vending machine as inactive.




                                                        4
Rio Grande District –                                                          FF-AR-09-205
 Vending Operations Risk


   •   xxxxxxxxxxxxxxxxxxxxxxxxx, Lago Vista, TX
   •   xxxxxxxxxxxxxxxxxxxxxxx, Round Rock, TX
   •   xxxxxxxxxxxxxxxxxxxxxxxxxx, Austin, TX
   •   xxxxxxxxxxxxxxxxxx , Austin, TX
   •   xxxxxxxxxxxxxxxx, Austin, TX

We reviewed stamp stock balance documentation at each unit and conducted counts of
the vending accountability at the units with open vending credits. In addition, we
reviewed security and closing procedures, and reviewed documentation for financial
differences related to vending. We reviewed transactions generated for the November
29, 2008, through April 3, 2009, reporting period, FY 2009.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. We interviewed
supervisors and employees and observed operations at these judgmentally selected
Postal Service sites. We interviewed Southwest Area and Rio Grande District officials
to determine which procedures are in place to monitor vending closing procedures.

We conducted this audit from April through August 2009 in accordance with generally
accepted government auditing standards and included such tests of internal controls as
we considered necessary under the circumstances. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management on June 24, 2009. and included their comments where
appropriate.




                                             5
Rio Grande District –                                                               FF-AR-09-205
 Vending Operations Risk


PRIOR AUDIT COVERAGE

The OIG issued the following financial audit reports, which included vending
accountability issues, for units in the Rio Grande District within the past 3 years.
Management agreed with our findings and recommendations in each report.

                                Final                   Non-
  Report          Report       Report    Monetary     Monetary           Report Results
    Title        Number         Date      Impact       Impact
FY 2008        FF-AR-08-031   11/27/07      $1,064       $8,972    We reported that the unit had
Financial                                                          not transfered the vending
Installation                                                       accountability sssssssss
Audit –                                                            xxxxxxxxxxxxxxxxxxxxxxx xxxx
xxxxxxxx                                                           xxxxxxx. In addition, the unit
Main Post                                                          was using funds collected from
Offfice                                                            the vending machine to provide
                                                                   change to support window
                                                                   operations.
FY 2007        FF-AR-07-149   4/23/07             -           -   We reported that the unit was
Financial                                                         not transfering the vending
Installation                                                      accountability sssssssss
Audit –                                                           xxxxxxxxxxxxxxxxxxxxxxx xxxx
xxxxxxx                                                           xxxxxxx In addition, the unit
Post Office                                                       was not documenting vending
                                                                  reimbursements for customers
                                                                  claims for losses of money
                                                                  and/or stamps.
FY 2007        FF-AR-07-092   2/13/07      $16,186      $39,688   We reported the unit was not
Financial                                                         transfering the vending
Installation                                                      accountability sssssssss
Audit –                                                           xxxxxxxxxxxxxxxxxxxxxxx xxxx
xxxxxxx                                                           xxxxxxx In addition, the unit
Station                                                           accumulated $15,014 of cash
                                                                  and coins from two machines
                                                                  without making the required
                                                                  deposit of funds.
FY 2006        FF-AR-06-268   9/26/06             -           -   We reported the unit was not
Financial                                                         completing PS Forms 5445 for
Installation                                                      customers claims of losses for
Audit –                                                           money and/or stamps. In
xxxxx                                                             addition, the unit was accepting
xxxxxxx                                                           handwritten notes from
Self-                                                             customers requesting
Service                                                           reimbursements and was
Postal                                                            issuing stamp stock instead of
Center                                                            cash reimbursements.




                                              6
Rio Grande District –                                                                     FF-AR-09-205
 Vending Operations Risk


                            APPENDIX B: DETAILED ANALYSIS

Vending Controls Were Not Followed

Management at six units did not adhere to controls and procedures over vending
operations. Specifically, the units did not conduct final counts of vending
accountabilities totaling $185,244, deposit $9,241 in vending cash, or send vending
stamp stock to the SDO for destruction when the units closed the vending operations.

For four of the units in Austin – the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxx xxxxxx Stations – beginning in approximately October 2007, the District
assigned the vending responsibilities to a Vending Technician who was responsible for
all Self-Service Postal Centers (SSPC) in Austin.7 When the Technician assumed his
duties, management at each of the four units removed the vending stock and cash from
the machines and placed the accountabilities in safes. The Technician used stock from
his SSPC accountability to service the vending operations at the four units until
January 2009, when that accountability was closed.

The xxxxxxxxx Station Manager stated he had informed the former Station Manager the
vending accountability needed to be closed and routinely reminded her until she left the
unit in December 2008. The former Station Manager stated that other duties had higher
priority. The Supervisor, Customer Service, for Bluebonnet and the Town North
Finance Stations stated that she was not properly trained on vending, and she also had
other duties that were higher priority. The Chimney Corners Acting Station Manager
stated he was unaware the vending accountability was still open.

At the other two units – xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx Station – when the
machines were removed from service in February 2009, management did not conduct
final credit examinations, close the vending accountabilities, deposit cash, or send
vending stamp stock to the SDO for destruction. The Supervisor at xxxxxxxxxxxxx
stated it was an oversight that he had not closed the vending credit, and the Supervisor
at xxxxxxxxxx stated she did not have time to prepare a final deposit and close the
vending accountability.

In addition, there were other internal control and compliance issues related to vending
at the units. While the vending operations at these six units have ceased, we noted that
management at five of the units did not follow key vending policies and procedures
while the vending accountabilities were active. For example, five units did not maintain
PS Forms 3977, Duplicate Key, Combination, and Password Envelope, for vending safe
combinations and keys. One unit did not transfer the vending accountability when a
vending technician transferred to another unit, and another unit commingled the vending
stock with another unit. Management at two of these units cited insufficient


7
 Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.




                                                   7
Rio Grande District –                                                       FF-AR-09-205
 Vending Operations Risk


management oversight and training, and three units could not provide a cause for not
following vending policies and procedures.

See Appendix D for a summary of findings by unit. See Appendix E and Appendix F for
a summary of the monetary and non-monetary impacts, respectively, associated with
not following vending procedures.
.




                                           8
        Rio Grande District –                                                                               FF-AR-09-205
         Vending Operations Risk


                                           APPENDIX C: ACCOUNTABILITY EXAMINATION SUMMARY

        This table presents the results of vending accountability examinations performed during the audit, rounded to the
        nearest dollar. Shortages and overages presented are the total value of all shortages and overages identified.

                                                     Total Value of All
                                                     (out of tolerance)
                          Total Value of
     Unit Name            Accountability          Shortages         Overages                               Remarks
                                                                                 The unit posted the shortage in Account Identifier Code (AIC)
                                                                                 612, Vending Credit Shortage, and completed PS Form 571,
xxxxxxxxxxxxxxxxx                   $73,216             $6,123                $0
                                                                                 Discrepancy of $100 or more in Financial Responsibility, on
                                                                                 April 22, 2009.
                                                                                The unit posted the overage in AIC 175, Postage Vending
xxxxxxxxxxxxxxxxx                     53,859                   0         15,049 Machine Overage, and completed PS Form 571 on April 21,
                                                                                2009.

                                                                                    The unit posted the overage in AIC 175 and completed PS
xxxxxxxxxxxxxxxxx                     7,428                    0            628
                                                                                    Form 571 on April 22, 2009.

                                                                                    The unit posted the overage in AIC 175 and completed PS
xxxxxxxxxxxxxxxxx                    31,374                    0        10,764
                                                                                    Form 571 on April 22, 2009.
                                                                                    The unit posted the overage in AIC 175 and completed PS
xxxxxxxxxxxxxxxxx                      7,865                   0             424
                                                                                    Form 571 on April 25, 2009.

xxxxxxxxxxxxxxxxx                      5,393                   5                0 None.

                                                                                    The unit posted the shortage in AIC 612 and completed PS
xxxxxxxxxxxxxxxxx                      8,116             8,1168                 0
                                                                                    Form 571 on April 29, 2009.
Total                             $187,251            $14,244          $26,865



        8
         The vending clerk removed the vending stock from xxxxxxxxx Finance Station without closing the accountability and commingled it with her vending stock at
        xxxxxxxxxxxxxxxxxxxx. We did not include this shortage in our monetary impact because it contributes to the overage at xxxxxxxxxxxxxx Station.


                                                                                    9
         Rio Grande District –                                                                                       FF-AR-09-205
          Vending Operations Risk


                                                                     APPENDIX D: AUDIT FINDINGS




                                                                                                                         Total
                                                xxxx


                                                            xxxx

                                                                    xxxx


                                                                               xxxx



                                                                                             xxxx


                                                                                                        xxxx
Internal Control Deficiency9
The unit did not:                                                                                                                          Criteria
Conduct a final credit examination
                                                                                                                                 Handbook F-101, Field
and close the vending credit when
                                                  X         X              -          X             -          X          4      Accounting Procedures,
the SSPC technician took over
                                                                                                                                 Section 14-1.2, January 2009
vending duties at the unit.
Conduct a final count and close the
vending accountability when the                                                                                                  Handbook F-101, Section 14-
                                                   -         -         X              -         X              -          2
machines were removed from                                                                                                       1.2
service.
                                                                                                                                 Handbook PO-102, Self
                                                                                                                                 Service Vending Operational
Deposit cash from vending
                                                  X         X          X              X         X              -          5      Marketing Program, Section
operations.
                                                                                                                                 571.1, May 1999 (updated
                                                                                                                                 through August 2007)
                                                                                                                                 Handbook F-101, Section 14-
Return stamp stock to the SDO.                    X         X          X              X         X              -          5
                                                                                                                                 1.2
                                                                                                                                 Handbook F-101, Section 3-
Maintain PS Forms 3977.                           X         X              -          X         X              X          5
                                                                                                                                 8.2.1
Transfer the vending accountability
                                                                                                                                 Handbook PO-102, Section
when the employee transferred to                   -         -             -          X             -          -          1
                                                                                                                                 611
another unit.
Keep vending stock separate from                                                                                                 Handbook PO-102, Section
                                                   -        X              -          -             -          X          2
another unit’s vending stock.                                                                                                    561




         9
             An “X” indicates the respective location where we identified the condition noted in the deficiency description.


                                                                                           10
           Rio Grande District –                                                                                FF-AR-09-205
            Vending Operations Risk


                                                        APPENDIX E: MONETARY IMPACT SUMMARY


                                                                                                                                    Total
                                                                                                                         Unrecoverable
                                                                                                                         Unsupported Recoverable
 Finding                                                                                                                  Questioned      Revenue
Description           xxxx              xxxx               xxxx             xxxx              xxxx         xxxx             Cost10         Loss11
Undeposited
                          $353                   $6          $2,323          $1,932           $4,627                 -                       -            $9,241
vending cash
Vending
cash                     6,123                     -                 -               -               -             $5                $6,128                          -
shortage

Totals                 $6,476                    $6          $2,323          $1,932           $4,627               $5                $6,128               $9,241




           10
              Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation. These costs are also not supported by adequate
           documentation.
           11
              Revenue that can be collected for goods delivered or services rendered.


                                                                                         11
Rio Grande District –                                                                                    FF-AR-09-205
 Vending Operations Risk


                                            APPENDIX F: NON-MONETARY IMPACT SUMMARY


                                                             Accountable Items at Risk12


      Finding Description                    xxxx               xxxx                 xxxx               xxxx               xxxx                    Total
      Final counts of vending
      accountabilities not
      conducted and vending
                                              $66,740            $68,903              $40,205             $5,733               $3,663              $185,244
      stamp stock not sent to
      the SDO for
      destruction.




12
     Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of inadequate internal controls.


                                                                                12
Rio Grande District –                                     FF-AR-09-205
 Vending Operations Risk




                      APPENDIX G: MANAGEMENT’S COMMENTS




                                     13
Rio Grande District –           FF-AR-09-205
 Vending Operations Risk




                           14
